MITED STATES COURT OF /
EALS
FOR THE EIGHTH CIRCUIT

No: 19-3457

Aff€H«X A

Santosh Ram
Plaintiff - Appellant
v.

United States of America
Defendant - Appellee
Appeal from U.S. District Court for the Western District of Arkansas - Fayetteville
(5:16-cv-05114-TLB)
JUDGMENT
Before GRUENDER, BENTON, and GRASZ, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied.
The motions to proceed on appeal in forma pauperis and to amend the title of the brief in
support of the certificate of appealability application are denied as moot.
The appeal is dismissed.
March 24, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

U. S. District Court

/

APPgND** 8

Western District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 10/11/2019 at 4:08 PM CDT and filed on 10/11/2019
USA v. Ram
Case Name:
5:13-cr-50045-TLB
Case Number:
Filer:
Document Number: 148(No document attached)
Docket Text:
TEXT ONLY ORDER denying [145] Motion to Set Aside Order on Motion to Vacate.
Defendant recently requested and received his passport, which had been held by the
Government since his arrest and had not been destroyed. Defendant now argues that the
contents of his passport constitute "newly acquired evidence" that proves his actual
innocence of the crime to which he pleaded guilty. He asks that the Court vacate its order
denying his motion to vacate and reopen the motion for further proceedings. After
carefully reviewing Defendant's motion in light of Federal Rule of Criminal Procedure 60,
the Court finds that his passport and its contents do not provide a legaf reason for
vacating the Court's order on the motion to vacate. Signed by Honorable timothy L.
Brooks on October 11, 2019. (cc via CM/ECF: U.S. Probation Office, U.S. Marshals Service)
(ee)
5:13-cr-50045-TLB-l Notice has been electronically mailed to:
Deborah Fennell Groom Debbie.Groom@usdoj.gov, Candace.Taylor@usdoj.gov,
CaseView.ECF@usdoj .gov, cindy.mckinney@usdoj.gov, kimberly.brooks@usdoj .gov
Kimberly R. Weber

krw@mcrmt.com, kassist@mcrmt.com

Emily Milholen Reynolds
Dustin S. Roberts
Benjamin Wulff

Emily.reynolds@walmartlegal.com

Dustin.Roberts@usdoj.gov, CaseView.ECF@usdoj.gov, Nicole.M.Times@usdoj.gov
Ben.Wulff@usdoj.gov, CaseView.ECF@usdoj.gov, nicole.m.times@usdoj.gov

5:13-cr-50045-TLB-l Notice has been delivered by other means to:
Santosh Ram(Terminated)
11361-010
Great Plains Correctional Facility
P.O. Box 400
Hinton, OK 73047

IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
PLAINTIFF

UNITED STATES
CASE NO. 5:13-CR-50045

V.

DEFENDANT

SANTOSH RAM
ORDER

Now before the Court is Defendant Santosh Ram's Motion for Certificate of
Appealability (Doc. 154). Mr. Ram seeks a certificate of appealability as to the Court’s
Order from October 11, 2019 (Doc. 148), denying his request to reopen his motion to
vacate under 28 U.S.C. § 2255. Mr. Ram is now in possession of his passport—which
he describes as newly discovered evidence he seeks to use to support his habeas
petition. In a motion brought pursuant to Federal Rule of Criminal Procedure 60(b) (Doc.
145), he argued that the Court should permit him to file a copy of his passport under seal
and consider certain information in the passport that he believed supported his argument
that he is actually innocent of the crime to which he pleaded guilty. The Court denied the
Rule 60(b) motion and the motion requesting leave to file the passport under seal (Doc.
147), and Mr. Ram seeks to appeal those decisions. The district court is obligated to
consider whether a certificate of appealability should issue when the court denies a Rule
60(b) motion seeking to reopen a habeas case. See United States v. Lambros, 404 F.3d
1034,1036 (8th Cir. 2005).
A certificate of appealability may issue “only if the applicant has made a significant
showing of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). This, in turn,
requires a demonstration “that reasonable jurists could debate whether (or, for that
1

matter, agree that) the petition should have been resolved in a different manner or that
the issues presented were ‘adequate to deserve encouragement to proceed further.’”
Slack v. McDaniel, 529 U.S. 473, 484 (2000) (citing Barefoot v. Estelle, 463 U.S. 880,
893 n.4 (1983)).
The Court finds that neither Mr. Ram’s Rule 60(b) motion nor his motion to vacate
made a significant showing of the denial of a constitutional right. The Court further finds
that reasonable jurists would have no reason to disagree or debate about how the Court
resolved either motion, or otherwise find that further proceedings were justified.
Accordingly, IT IS ORDERED that the Motion for Certificate of Appealability (Doc. 154) is
DENIED.

4*

IT IS SO ORDERED on this _J_day of Noven/t^er, 2019.

wm\. brookSs

'

E3 STATES^!STRICT COURT

2

fftsiTED STATES COURT OF

a.

^EALS
FOR THE EIGHTH CIRCUIT
No: 19-3457
Santosh Ram
Appellant
V.

United States of America
Appellee

Appeal from U.S. District Court for the Western District of Arkansas - Fayetteville
(5:16-cv-05114-TLB)
ORDER
The petition for rehearing en banc is denied. The petition for rehearing by the panel is
also denied.
May 11, 2020

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

• Orders on Motions
5:13-cr-50045-TLB USA v.-. .dm CASE CLOSED on 02/18/2014
CLOSED.APPEAL
U. S. District Court
Western District of Arkansas
Notice of Electronic Filing
The following transaction was entered on 11/4/2019 at 2:58 PM CST and filed on 11/4/2019
USA v. Ram
Case Name:
Case Number:
5:13-cr-50045-TLB
Filer:
Document Number: 156
Docket Text:
ORDER DENYING [154] Motion for Certificate of Appealability as to Santosh Ram (1). Signed by
Honorable Timothy L. Brooks on November 4, 2019. (cc via CM/ECF: U.S. Probation Office, U.S.
Marshals Service) (Igd)
5:13-cr-50045-TLB-l Notice has been electronically mailed to:
Deborah Fennell Groom Debbie.Groom@usdoj.gov, Candace.Taylor@usdoj.gov, CaseView.ECF@usdoj.gov,
cindy.mckinney@usdoj .gov, kimberly.brooks@usdoj .gov
Kimberly R. Weber

krw@mcrmt.com, kassist@mcrmt.com

Emily Milholen Reynolds
Dustin S. Roberts
Benjamin Wulff

Emily.reynolds@walmartlegal.com

Dustin.Roberts@usdoj.gov, CaseView.ECF@usdoj.gov, Nicole.M.Times@usdoj.gov
Ben.Wulff@usdoj.gov, CaseView.ECF@usdoj.gov, nicole.m.times@usdoj.gov

5:13-cr-50045-TLB-l Notice has been delivered by other means to:
Santosh Ram(Terminated)
11361-010
Great Plains Correctional Facility
P.O. Box 400
Hinton, OK 73047
The following document(s) are associated with this transaction:
Document description :Main Document
Original filename:n/a
Electronic document Stamp:
[STAMP dcecfStamp_ID= 1094675213 [Date= 11/4/2019] [FileNumber= 1849953-0
] [77260fl729385135064a7422cfc466f24db533567941395f0ac57cde313bal88640
96396b0al5ff26e2d233c3411226b6de8e74d8172873d44ef2649a6460af7]]

*\

appendix
IN THE UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF ARKANSAS
FAYETTEVILLE DIVISION
UNITED STATES

V.

PLAINTIFF/RESPONDENT
CASE NO. 5:13-50045
CASE NO. 5:16-05114

SANTOSH RAM

DEFENDANT/PETITIONER
MEMORANDUM OPINION AND ORDER

Currently before the Court are the Objections to Magistrate Judge’s Report and
Recommendation (Doc. 114-1) filed by Defendant/Petitioner Santosh Ram in this case.
On June 22, 2016, Mr. Ram filed a Motion to Vacate, Set Aside, or Correct Sentence
pursuant to 28 U.S.C. § 2255 and Brief in Support (Docs. 89, 90). The Government
responded on August 26, 2016, (Doc. 94), to which Mr. Ram filed his Reply on October
31,2016, (Doc. 106). United States Magistrate Judge forthe Western District of Arkansas
James R. Marschewski issued his Report and Recommendation (“R&R”) denying Mr.
Ram’s Motion in full on April 24, 2018. (Doc. 108). Mr. Ram subsequently filed his
Objections thereto, requesting dismissal of the R&R and an evidentiary hearing to present
his claims. (Doc. 114-1, pp. 3, 48).
When a defendant makes specific objections to portions of a magistrate judge's
report and recommendation, the district court must review the contested findings or
recommendations de novo. See 28 U.S.C. § 636(b)(1). The court may then “accept,
reject, or modify, in whole or in part, the findings or recommendations made by the
magistrate judge.” Id. Here, Mr. Ram has objected to the R&R in its entirety and reasserts
each of the grounds of relief alleged in his Motion to Vacate and Brief in Support. (Docs.

l

.f

4»

89, 90, 114-1). As such, the Court has undertaken a de novo review of Defendant’s
objections and rules on each in turn.
I. DISCUSSION
Mr. Ram asserts 21 separate grounds for relief in his Brief in Support of his Motion,
all of which are reiterated in his Objections. (Docs. 90,114-1). The R&R addresses these
claims individually. Many of Mr. Ram’s claims are barred by a finding that his guilty plea
was valid; therefore, the Court will begin its analysis by determining the validity of Mr.
Ram’s plea, and then the Court will discuss the remaining claims.
A. Validity of Plea
Mr. Ram contends that his guilty plea was invalid for the following reasons: (1) his
attorney failed to effectively advise him prior to the entry of his guilty plea, (2) he was
coerced into signing the plea agreement, and (3) he lacked the mental capacity to enter
his change of plea. (Doc. 114-1, pp. 5, 37, 38). The Court has considered the record
concerning the facts and circumstances surrounding Mr. Ram’s guilty plea, including the
Unopposed Motion to Determine Competency of Defendant (Doc. 24), the Order denying
said Motion (Doc. 25), the Motion for Reconsideration of that Order (Doc. 26), the Plea
Agreement (Doc. 31), and the Change of Plea Hearing transcript (Doc. 70), de novo.
Upon such consideration, the Court finds Mr. Ram voluntarily entered his guilty plea on
August 28,2013, for the reasons explained below.
Any reliance Mr. Ram may have had oh his attorney’s alleged failure to inform him
l

that pleading guilty would not guarantee him a certain sentence does not render his plea
involuntary so long as the district court judge informed him of the maximum possible
sentence he faced should he plead guilty. See United States v. Granados, 168 F.3d 343,

2

agreement provides ample basis for Mr. Ram’s conviction of Knowing Receipt of Child
Pornography in violation of 18 U.S.C. §§ 2252(a)(2) and (b)(1). Because his guilty plea
was valid, this objection is OVERRULED.
D. Ineffective Assistance of Counsel
The majority of Mr. Ram’s objections concern his assertion that he was provided
ineffective assistance of counsel. Once a defendant pleads guilty to a charge against
him, he cannot raise an independent claim alleging a deprivation of his constitutional
rights prior to his entry of that plea. Tollett v. Henderson, 411 U.S. 258, 267 (1973).
Having pleaded guilty, a defendant may only attack the voluntary and intelligent character
of his plea by demonstrating his attorney’s advice does not satisfy the standards set forth
in McMann v. Richardson, 397 U.S. 759 (1970). Id. According to McMann, a plea is
considered intelligent so long as it is based on “reasonably competent advice” and is not
subject to attack if an attorney’s advice falls within that range of competence . 397 U.S.
at 770. Furthermore, to succeed on a claim for ineffective assistance of counsel, a
defendant must prove not only that his attorney's performance was deficient but that he
was prejudiced by that deficiency. Strickland v. Washington, 466 U.S. 668,687 (1984).
The ultimate focus when determining this issue is the “fundamental fairness of the
proceeding whose result is being challenged.” Id. at 696. In the context of a guilty plea,
a defendant asserting ineffective assistance of counsel must prove that he would not have
pleaded guilty absent his attorney’s errors. United States v. Prior, 107 F.3d 654,661 (8th
Cir. 1997). Courts are not required to address the performance prong of the Strickland
test if it is clear a defendant has failed to prove he was prejudiced by any of his attorney’s
alleged deficiencies. See Boysiewick v. Schriro, 179 F.3d 616, 620 (8th Cir. 1999).

The R&R addresses seven categories of objections within the penumbra of Mr.
Ram’s ineffective assistance of counsel claim. First, Mr. Ram claims that his

attorney

failed to provide adequate legal advice prior to the entry of his guilty plea, rendering his
plea unintelligent. The Court finds that Mr. Ram has failed to prove he was prejudiced by
any of these allegations. No evidence exists to suggest that Mr. Ram would have fared
better by going to trial. The factual basis provided in the plea agreement set forth facts
clearly sufficient to convict Mr. Ram of the charge against him. As will be discussed
below, nothing in the record exists to suggest Mr. Ram’s incriminating statements to law
enforcement or the property seized at his apartment could have been suppressed. Any
confusion Mr. Ram may have had regarding the possible length of the sentence he faced
was resolved by the discussion at his change of plea hearing, where the presiding judge
informed him of the minimum and maximum terms of imprisonment he faced upon
pleading guilty at that time. Absent a showing that he had any reason to forego the plea
agreement offered him, Mr. Ram fails to proffer any reason sufficient to convince the
Court that he would have pursued a trial on the charges he faced. As such, the Court
finds no evidence that Mr. Ram was prejudiced by any allegations concerning inadequate
legal advice, and his objections regarding the same are OVERRULED.
Mr. Ram also alleges that his attorney failed to put forth any meaningful adversarial
effort in his defense. Although the R&R goes to great lengths to demonstrate how Mr.
Ram’s attorney exhibited reasonable competence in this area, the Court finds the majority
of Mr. Ram’s allegations in this category are precluded by his guilty plea. The entry of a
valid guilty plea bars any allegation that a defense attorney failed to file certain motions
or make other challenges prior to the entry of that plea. See Toltett, 411 U.S. at 267.

345 (8th Cir. 1999). Therefore, Mr. Ram’s accusation that his attorney made “false
promises and assurances” that he would receive a specific sentence, allegedly resulting
in ineffective assistance of counsel, fails to prove that his guilty plea was made either
involuntarily or unknowingly. The transcript from Mr. Ram’s change of plea hearing
indicates that the district court judge1 provided him with information as to the minimum
and maximum possible sentences he would be facing should he enter a plea of guilty, in
addition to discussing the advisory nature of the Sentencing Guidelines to ensure he
understood that he was not being promised any specific sentence. (Doc. 70, pp. 28, 29,
30). Thus, Mr. Ram cannot rely on allegations that his attorney failed to provide this
information to him to demonstrate his plea was unintelligent.

See United States v.

Chambliss, 1995 U.S. App. LEXIS 23047 at 2 (8th Cir. 1995). The district court judge
also inquired as to whether Mr. Ram had been threatened or forced to enter his guilty
plea, and Mr. Ram testified that he was voluntarily pleading guilty. (Doc. 70, p. 12). The
Court finds the district court judge’s conversation with Mr. Ram cleared up any concerns
regarding the voluntary and intelligent nature of his guilty plea.
In addition, the Court finds that Mr. Ram demonstrated the requisite mental
capacity for entering" his plea at the time of his change of plea hearing. Although his
attorney previously filed a motion seeking to determine Mr. Ram’s competency, at the
change of plea hearing, the district court judge explained his reasoning for denying that
motion and finding Mr. Ram competent to plead guilty. (Doc. 70, pp. 15-23). The facts
presented and the discussion occurring at that hearing show that Mr. Ram understood
the charges against him and was able to consult with both his attorney and the district

The Honorable Jimm Larry Hendren.
3

court judge with a reasonable degree of rational understanding. See Wright v. Bowersox,
720 F.3d 979, 985 (8th Cir. 2013) (“[TJhe relevant inquiries for whether [a defendant] was
competent to waive his constitutional rights were whether he had 'sufficient present ability
to consult with his lawyer with a reasonable degree of rational understanding’ and had 'a
rational as well as factual understanding of the proceedings against him.”’ (quoting
Godinez v. Moran, 509 U.S. 389, 396 (1993))). Because the Court finds the record
demonstrates Mr. Ram entered his guilty plea both voluntarily and intelligently, his
objection regarding the validity of his guilty plea is OVERRULED.
B. Actual Innocence
Mr. Ram’s next objection is that his actual innocence demands that his sentence
be set aside. However, Mr. Ram previously argued this on appeal. See United States v.
Ram, 594 F. App’x 317 (8th Cir. 2015). The Eighth Circuit Court of Appeals denied this
argument because it is foreclosed by Mr. Ram’s guilty plea. Id. at 317.2 A claimant cannot
relitigate in a § 2255 proceeding that which has already been adversely decided on
appeal. Woods v. United States, 567 F.2d 861, 863 (8th Cir 1978). Because Mr. Ram’s
actual innocence claim was previously addressed on appeal, his objection regarding the
same is OVERRULED.
C. Insufficient Evidence
The Magistrate Judge relied on the factual basis set forth in Mr. Ram’s guilty plea
to determine that his claim of insufficient evidence was without merit. The Court finds this
determination to be accurate, as the factual basis proffered by the Government in the plea

2 As previously discussed, the Court has now considered the validity of Mr. Ram’s plea
de novo and finds that it was offered voluntarily and intelligently.
4

Mr. Ram asserts that his attorney was ineffective after the plea because she: 1)
withdrew objections to the Presentence Investigation Report at the sentencing hearing,
2) failed to argue that the sentence violated the Eighth Amendment, and 3) failed to argue
for a punishment in the alternative to incarceration. These allegations fail to establish
ineffective assistance of counsel, because Mr. Ram has failed to show how he was
prejudiced as a result.
First, the withdrawal of objections at a sentencing hearing does not constitute
ineffective assistance of counsel where no reasonable probability of prevailing on those
objections exists. See Toledo v. United States, 581 F.3d 678, 681 (8th Cir. 2009). The
objections withdrawn by Mr. Ram’s attorney pertained mainly to generalizations and word
choice made by the probation officer and to the application of cross-reference § 2G2.1.
The Court will address the applicability of the cross-reference below but asserts the
appropriateness of its application here for purposes of this analysis. Furthermore, the
withdrawal of these objections likely benefitted Mr. Ram, as his objections ran the risk of
conflicting with matters he had already admitted in his plea agreement, which could have
resulted in the district court denying his downward adjustment for acceptance of
responsibility. Having failed to show that the withdrawal of these objections prejudiced
his case in any way, Mr. Ram’s allegation concerning said withdrawal does not
demonstrate ineffective assistance of counsel.
Second, on appeal, the Eighth Circuit upheld Mr. Ram’s sentence as substantively
reasonable. See United States v. Ram, 594 F. App’x 317, 317 (8th Cir. 2015). Where
the sentence falls within a defendant’s statutory range and is found to be substantively
reasonable, his sentence does not violate the Eighth Amendment. See United States v.

7

Vanhorn, 740 F.3d 1166, 1170 (8th Cir. 2014) ("[The Eighth Circuit] has never held a
sentence within the statutory range to violate the Eighth Amendment.”). Finally, Mr. Ram
was not eligible for probation as the statute under which he was convicted, 18 U.S.C..
§ 2252(a)(2), mandates a term of imprisonment for at least five years; therefore, any
argument for a sentence other than incarceration would have been fruitless and cannot
amount to ineffective assistance of counsel. For the reasons stated above, Mr. Ram’s
objections alleging failure by his attorney to put forth meaningful adversarial effort in his
defense are OVERRULED.
The third group of claims umbrellaed under his ineffective assistance of counsel
claim alleges ineffective assistance on appeal. Absent evidence to the contrary, appellate
counsel’s failure to raise a claim is presumed to be sound appellate strategy. Roe v.
Delo, 160 F.3d 416, 418 (8th Cir. 1998). Furthermore, Mr. Ram presented his own
arguments to the Eighth Circuit on appeal, through pro se submissions, and the court
considered his pro se arguments alongside those presented by his attorney. See Ram,
594 F. App’x at 317-318. Because his arguments were indeed addressed on appeal, Mr.
Ram fails to show how he was prejudiced by his attorney’s failure to appeal on any of
those bases. Mr. Ram’s claims regarding ineffective assistance of counsel on appeal are,
therefore, OVERRULED.
Mr. Ram next alleges that his trial attorney had a conflict of interest which
prevented him from receiving effective assistance of counsel. To prevail on this claim,
Mr. Ram must show that a conflict of interest existed and that the conflict resulted in an
actual, demonstrable effect on his attorney’s performance. Covey v. United States, 377
F.3d 903, 908 (8th Cir. 2004). The affidavit provided by Mr. Ram’s attorney details that

8

the decision not to pursue a trial was based on the sufficiency of the evidence against Mr.
Ram and the benefit he received by pleading to a crime in a lower statutory category.
The evidence presented by the Government supports these assertions, and Mr. Ram has
failed to proffer any convincing evidence to rebut these conclusions; thus, his objection
pertaining to his allegation of conflict of interest is OVERRULED.
Mr. Ram’s fifth claim regarding ineffective assistance of counsel alleges the failure
of his attorney to make reasonable investigations regarding his case. The Court finds this
objection is barred by his guilty plea, as the allegation arises from events occurring prior
to the entry of his plea. Therefore, because the Court has already found his plea to be
valid, Mr. Ram’s objection regarding his attorney’s alleged failure to investigate is
OVERRULED.
The sixth claim asserted as evidence of ineffective assistance of counsel is Mr.
Ram’s professed dissatisfaction with his attorney. The right to counsel afforded by the
Sixth Amendment, however, is “the right to the effective assistance of counsel[,j" the
standard for which is set forth in McMann v. Richardson, 397 U.S. 759, n.14 (1970). The
right to be satisfied with one’s attorney is not the right afforded by the Constitution. As
such, Mr. Ram’s objection regarding his dissatisfaction with his attorney is OVERRULED.
In regard to his next objection, Mr. Ram’s claim that his attorney used deception,
lies, and misrepresentation to coerce him into signing the plea agreement is rendered
meritless upon the finding that his guilty plea was voluntary. The Court has found his plea
to be valid; therefore, Mr. Ram’s objection based on his attorney’s alleged deception, lies,
and misrepresentation is OVERRULED.

9

The final objection addressed by the R&R in this section alleges that the district
court committed procedural error by failing to make a Guidelines calculation prior to
imposing a sentence upon Mr. Ram, and his attorney was ineffective for failing to object
to this alleged error. This objection is without merit, as the district court clearly calculated
Mr. Ram’s applicable Guidelines range prior to sentencing him. See Doc. 55, p. 14
(sentencing hearing transcript detailing that the district court judge identified Mr. Ram’s
Guidelines range as 135 to 168 months). This Guidelines calculation was specifically
referenced by the Eighth Circuit appeal. Ram, 594 F. App’x at 317. Mr. Ram's objection
regarding the failure of his attorney to object to a non-existent error by the district court
is, thus, OVERRULED.
Mr. Ram reasserts ten additional claims that were included in his Brief in Support
of his § 2255 Motion but were not addressed by the R&R. The first of those claims,
labeled 03.i (Doc. 90, p. 11), alleges that his attorney failed to do the following: 1) file a
motion for discovery, 2) inform him of his trial date* 3) timely provide him with his
presentence investigation report, and 4) provide him with a copy of the brief she submitted
upon appeal. Contrary to Mr. Ram’s assertions, his attorney did request discovery via
oral motion in open court, as demonstrated by the text only minute entry entered on April
30, 2013. Additionally, the Federal Rule of Criminal Procedure cited by Mr. Ram, Rule
32(e)(2), places deadlines on the probation officer preparing the presentence
investigation report, not on the defendant’s attorney. As to the other two assertions
presented in Mr. Ram’s § 03.i, he has failed to prove that he was prejudiced by either of
them. He raised the arguments he desired during his appeal, and nothing in the record
suggests that being informed of his trial date would have changed the outcome of his

10

decision to plead guilty. Mr. Ram's claims in § 03.i of his Brief in Support are without
merit and are OVERRULED.
The issues presented in § 03.j of Mr. Ram’s Brief in Support echo allegations
previously discussed under his assertions of inadequate legal advice and lack of
adversarial effort.

For the reasons addressed in those discussions, any objection

concerning this section is OVERRULED.

Next, the Court finds nothing to suggest

entering a plea agreement was not in Mr. Ram's best interest and any challenge to the
; sufficiency of the evidence against him or the calculation of the Sentencing Guidelines
would have been futile; thus, Mr. Ram fails to demonstrate he was prejudiced by any of
the allegations contained in the following sections: Q3.k, 03.1, 03.n, 03.q.01, 03.q.02,
03.q.05, and 03.q.06. Objections regarding these sections are, therefore, OVERRULED.
The claims contained in §§ 03.m, O3.o, 03.q.03, and 03.q.04 are all barred by Mr. Ram's
plea of guilty, that plea being determined by the Court to be voluntary and knowing, and
objections pertaining to these sections are OVERRULED. Mr. Ram’s allegation in § 03.p
is a replica of his conflict of interest claim in § 03.d of his Brief, which the Court found to
be without merit, and is OVERRULED. Finally, Mr. Ram contends that the accumulated
effect of these alleged errors by his counsel rendered her ineffective overall; however, the
, Court has been unable to identify any prejudice resulting from even one of these alleged
. errors. This objection is also OVERRULED.
E. Misapplication of Sentencing Guidelines
The next claim raised by Mr. Ram challenges the constitutionality and application
of cross-reference §2G2.2(c)(1) of the United States Sentencing Guidelines. Thiscross1 reference applies when the offense “involved causing, transporting, permitting, or offering

11

or seeking by notice or advertisement, a minor to engage in sexually explicit conduct for
the purpose of producing a visual depiction of such conduct.” U.S.S.G. § 2G2.2(c)(1).
The factual basis set forth in Mr. Ram’s plea agreement includes his admissions to
creating a Facebook profile in order to access minor females and receiving digital images
of minor females engaging in explicitly sexual conduct as a result. (Doc. 31, p. 4). The
Court finds that this conduct falls squarely within the realm of conduct contemplated by
§ 2G2.2.

As to the constitutionality of the cross-reference, Mr. Ram asserts that

“[enhancing a person’s sentence based on only Guideline Commentary is
unconstitutional and unlawfulfl” (Doc. 90, p.14) and violates the Fifth and Sixth
Amendments (Doc. 114-1, p. 36). Other than these conclusory allegations, Mr. Ram
offers no authority in support of these contentions. Even construing Mr. Ram’s claims
broadly, the Court has not identified sufficient evidence to support this argument. As
such, Mr. Ram’s objection concerning misapplication of the Sentencing Guidelines is
OVERRULED.
F. Disparity in Sentence
*

■

•

»

Mr. Ram argues that a 135 month sentence for receipt of child pornography
represents a “gross national disparity in sentencing." (Doc. 90, p. 16). This argument
was presented by Mr. Ram’s attorney in his sentencing memorandum prior to his
sentencing hearing. (Doc. 43, p. 7). Although the argument was not directly addressed
on appeal, the Eighth Circuit did uphold Mr. Ram’s sentence as substantively reasonable.
See Ram, 594 F. App’x at 317. Because this argument was presented to the district court
judge prior to the imposition of the sentence, and the Eighth Circuit upheld that sentence
on appeal, this objection is OVERRULED.

12

G. Breach of Plea Agreement
Although addressed to some extent in the Court’s analysis of the validity of Mr.
Ram’s guilty plea, the Court will now address Mr. Ram’s specific contention that the
Government breached the plea agreement.

Mr. Ram alleges this breach occurred

because no one informed him that various portions of the Sentencing Guidelines could
be applied at sentencing, that the Government agreed with the Guidelines range at his
sentencing hearing, and that the plea agreement was modified after he signed it. As
previously stated, in regard to the Guidelines, Mr. Ram was informed of the statutory
minimum and maximum sentences that he faced and the advisory nature of the
Guidelines. See United States v. Granados, 168 F.3d 343, 345 (8th Cir. 1999). The fact
that the Guidelines range, when calculated, imposed enhancements and contained crossreferences from other parts of the Guidelines was wholly proper. There is no evidence
that Mr. Ram’s plea agreement was modified after he signed it. In any event, the Court
was not bound by the terms of that agreement in imposing a just sentence. His objection
:

on this issue is, thus, OVERRULED.
H. Defective Criminal Complaint, Information, and Indictment; Speedy Trial; Due
Process Violation; and Prosecutorial Misconduct
31

As long as his plea was made knowingly and voluntarily, Mr. Ram is barred from
challenging the deprivation of rights occurring prior to the entry of his guilty plea. See
Tollett v. Henderson, 411 U.S. 258,267 (1973). This includes his allegations of: defective
criminal complaint, information, and indictment; violations with regard to his right to a
speedy trial; due process violations; and allegations of prosecutorial misconduct. These
challenges are barred by his valid guilty plea, and objections stemming therefrom are
OVERRULED.
13

I. Constitutional Challenges
Mr. Ram asserts various arguments alleging the unconstitutionality of various
factors related to his case. He specifically alleges: 1) a violation of his Fourth Amendment
rights, 2) a violation of his Fifth Amendment rights, 3) a violation of his Fourteenth
Amendment rights, and 4) that portions of the Sentencing Guidelines and certain federal
statutes are unconstitutional. The Court finds that each of these challenges are barred
by his guilty plea, and they are OVERRULED.

The Court will address Mr. Ram’s

contentions regarding the alleged violations of his Fourth and Fifth Amendment rights,
however, to demonstrate that any action taken by his attorney regarding these violations
would have been futile.
1. Fourth Amendment Violation
Mr. Ram maintains that his attorney’s decision not to seek suppression of the
evidence seized at his apartment resulted in prejudice to him. He argues that no probable
cause existed for the issuance of the warrant allowing law enforcement to search his
residence. Probable cause, on which a search warrant is based, only requires a showing
of the probability of criminal activity and need not establish a prima facie case of the
suspected criminal activity. Illinois v. Gates, 462 U.S. 213, 235 (1983). The warrant
authorizing the search of Mr. Ram’s apartment was based on the following evidence:
Facebook chats obtained by law enforcement depicting conversations, which included
explicitly sexual content, between an eleven-year-old girl and a user calling himself “Peter
Na”, and the IP address for the “Peter Na” account was registered to Defendant Santosh
Ram, who was 29 years old at the time.

14

Based on these facts, there was probable cause to issue a warrant to search Mr.
Ram’s apartment. Law enforcement searched Mr. Ram’s residence only after securing
this valid warrant, rendering the search entirely reasonable. As the warrant relied upon
by law enforcement was based on sufficient probable cause, Mr. Ram’s Fourth
Amendment rights were not violated and any challenge to the contrary on the part of his
attorney would have been futile. Mr. Ram’s objection pertaining to the alleged violation
of his Fourth Amendment rights is, therefore, OVERRULED.
2. Fifth Amendment Violation
To determine whether his self-incriminating statements were compelled, the Court
considers the totality of the circumstances surrounding the issuance of those statements,
examining the conduct of law enforcement and Mr. Ram’s capacity to resist pressure
therefrom. See United States v. Astello, 241 F.3d 965, 967 (8th Cir. 2001). The Court
looks to see if the statements were extracted by “threats, violence, or direct or implied
promises, such that the defendant's will was overborne and his capacity for selfdetermination critically impaired." Id. (citing United States v. Kilgore, 58 F.3d 350, 353
(8th Cir. 1995)).
Mr. Ram alleges no facts suggesting he was subjected to any abnormal pressures
in his interactions with law enforcement.

The fact that Mr; Ram had not had any

experience with the criminal justice system did not render him incapable of resisting
ordinary pressures associated with interacting with law enforcement. Despite being born
and raised in India, Mr. Ram admitted to knowing and understanding English, (Doc. 70,
p. 5), and he presents no evidence in support of the idea that he was intellectually
incapacitated in any way. He was entirely capable of understanding what was being said

15

to him while being interviewed and had the capacity to measure his responses to law
enforcement s questions. See Astello, 241 F.3d at 968 (rejecting defendant’s argument
that his incriminating statements were involuntary because “[it was] clear that defendant
had the capacity to understand, and did understand, what was being said at the interview,
and that he had the capacity to measure his response").
Additionally, Mr. Ram’s assertions that he “was frightened because of so many
officers" and he “was alone.” (Doc. 114-1, p. 45) fail to establish proof of coercion. He
also claims that he was “threatened for five (5) year prison [sic],” (Doc. 114-1, p. 45), but
a law enforcement officer informing Mr. Ram of the sentence he faced for the charge
against him does not rise to the level of threat necessary to demonstrate that Mr. Ram’s
capacity for self-determination was overcome as a result. See Astello, 241 F.3d at 967
(“[(Questioning tactics such as a raised voice, deception, or a sympathetic attitude on the
part of the interrogator will not render a confession involuntary unless the overall impact
of the interrogation caused the defendant's will to be overborne.” (quoting Jenner v.
Smith, 982 F.2d 329, 334 (8th Cir. 1993))). Furthermore, in other sections of his Brief,
Mr. Ram admits that he told iaw enforcement he was not aware that laws prohibiting child
pornography and online enticement existed. See Doc. 90, p. 1. His admissions suggest
that he voluntarily proffered this information because he was ignorant of the law, not
because he felt threatened by law enforcement. Having failed to prove that he was
incapable of understanding what was being said to him by law enforcement or that he
was coerced into making self-incriminating statements, any challenge to the use of those
statements at trial would have been futile. The failure of Mr. Ram’s attorney to make such

16

a challenge, then, clearly did not result in prejudice to Mr. Ram. As a result, his objection
alleging a violation of his Fifth Amendment rights is OVERRULED.
J. Violation of Human Rights
Mr. Ram next claims that his guilty plea, more specifically the process by which it
was obtained, and the length of his sentence violate the Universal Declaration of Human
Rights, requiring that his sentence be vacated. The legality of federal detention must be
brought under § 2255. A defendant cannot circumvent this requirement by relying on
national treaties. Bannerman v. Snyder, 325 F.3d 722, 724 (6th Cir. 2003). Therefore,
Mr. Ram is required to prove that being held in federal custody violates “the Constitution
or laws of the United States, or that the court was without jurisdiction to impose such
sentence, or that the sentence was in excess of the maximum authorized by law, or is
otherwise subject to collateral attack[.]“ 28 U.S.C. § 2255(a). Because his objection fails
to assert an argument for which relief can be afforded under § 2255, this objection is
OVERRULED.
K. Racial Discrimination
Mr. Ram’s final objection alleges that the entire case against him was a result of
racial discrimination. This argument was addressed on appeal, where the Eighth Circuit
found that Mr. Ram failed to provide evidence supporting this argument. See Ram, 594
F. App’x at 318. Having been addressed on appeal, Mr. Ram is precluded from raising
this claim again here and his objection is OVERRULED.
L. Evidentiary Hearing
In bringing this plethora of objections, Mr. Ram ultimately seeks to convince the
Court to hold an evidentiary hearing to evaluate the validity of his guilty plea, which rests

17

r
\

if

on his ineffective assistance of counsel claim. The Court may dismiss such a request
without a hearing if (1) Mr. Ram’s allegations, accepted as true, would not entitle him to
relief, or (2) his allegations “’cannot be accepted as true because they are contradicted by
the record, inherently incredible or conclusions rather than statements of fact,” Delgado
v. United States, 162 F.3d 981, 983 (8th Cir. 1998). Mr. Ram is not entitled to a hearing
because all his objections are based on conclusory allegations or misinterpretations of
the law. His request for an evidentiary hearing was properly DENIED by the Magistrate
Judge.
II. CONCLUSION
For the reasons stated herein, all of Defendant’s objections are OVERRULED.
Accordingly, IT IS ORDERED that the Report and Recommendation (Doe. 108) is
ADOPTED IN ITS ENTIRETY, and the Motion to Vacate, Set Aside, or Correct Sentence
(Doc. 89) is DENIED. Judgment will follow.
IT IS SO ORDERED on this

S DISTRICT COURT

18

w1

TITED STATES COURT OF A. _ EALS
FOR THE EIGHTH CIRCUIT

No: 18-2865

Santosh Ram
St**

ts&

Petitioner - Appellant
v.
United States of America
Respondent - Appellee

Appeal from U.S. District Court for the Western District of Arkansas - Fayetteville
(5:16-cv-05114-TLB)
JUDGMENT
Before LOKEN, GRUENDER and GRASZ, Circuit Judges.

This appeal comes before the court on appellant's application for a certificate of
appealability. The court has carefully reviewed the original file of the district court, and the
application for a certificate of appealability is denied.
The motions to seal the entire case record and to compel Facebook to respond to
questions are denied.
The appeal is dismissed.
December 18, 2018

Order Entered at the Direction of the Court:
Clerk, U.S. Court of Appeals, Eighth Circuit.
/s/ Michael E. Gans

APPENDIX H
Constitutional and Statutory Provisions

(01)

Sixth Amendment Rights of Accused.
In all criminal prosecutions, the accused shall enjoy the right to a

speedy and public trial, by an impartial jury of the State and district wherein
the crime shall have been committed, which district shall have been previously
ascertained by law, and to be informed of the nature and cause of the accusat­
ion; to be confronted with the witnesses against him; to have compulsory
process for obtaining witnesses in his favor, and to'have the assistance of
counsel for his defense.

(02)

Fifth Amendment Criminal Actions-Provision Concerning Due Process of
Law and Just Compensation Clauses.
No person shall be held to answer for a capital, or otherwise infamous

crime, unless on presentment of a Grand Jury, except in cases arising in the
laws or naval forces, or in the milita, when in actual service in time of war
or public danger; nor shall any person be subject for the same offense to be
twice put in jeopardy of life or limb; nor shall be compelled in any criminal
case to be a witness against himself, nor be deprived of life, liberty, or
property, without due process of law; nor shall private property be taken for
public use, without just compensation.

x<03)

Fourth Amendment Unreasonable Searches and Seizures.
The right of the people to be secure in their persons, houses, papers,

an effects, against unreasonable searches and seizures, shall not be violated,
and no warrants shall issue, but upon probable cause, supported by oath or
affirmation,

and particularly describing the place to be searched, and the
1 of 3

APPE

X H

persons or things to be seized.

(04)

18 U.S.C. §2422(b) Coercion and Enticement.

Whoever, using the mail or any facility or means of interstate or foreign
commerce, or within the special maritime and territorial jurisdiction of the
United States knowingly persuades, induces, entices, or coerces any individual
who has not attained the age of 18 years, to engage in prostitution or any
sexual activity for which any person can be charged with a criminal offense, or
attempts to do so, shall be fined under this title and imprisoned not less than
10 years or for life.

(05) 18 U.S.C. §2252(a)(2) Certain Activities Relating to Material involving
the Sexual Exploitation of Minors.
Any person who- knowingly receives, or distributes, any visual depiction
using any means or facility of interstate or foreign commerce or that has been
nailed, or has been shipped or transported in or affecting interstate or foreign
commerce, or which contains materials which has been mailed or so shipped or
transported, by any means including by computer, or knowingly reproduces any
visual depiction for distribution using any means or facility of interstate or
foreign commerce or in or affecting interstate or foreign commerce or through
the mails, if(A) the producing of such visual depiction involves the use of a minor engag­
ing in sexual explicit conduct; and
(B) such visual depiction is of such conduct;

x«*)

18 U.S.C. §2251(a) Sexual Exploitation of Children.
Any person who employs, uses, persuades, induces, entices, or coerces

any minor to engage in, or who has a minor assist any other person to engage in,
2 of 3

APPENDIX H 1
or who transports any minor in or affecting interstate or foreign commerce, or
in any Territory or Possession of the United States, with the intent that such
minor engage in, any sexual explicit conduct for the purpose of producing any
visual depiction of such conduct or for the purpose of transmitting a live
visual depiction of such conduct, shall be punished as provided under subsecti­
on (e), if such person knows or has reason to know that such visual depiction
will be transported or transmitted using any means or facility of interstate
or foreign commerce or in or affecting interstate or foreign commerce or mailed
if that visual depiction was produced or transmitted using material that have
been mailed, shipped, or transported in or affecting interstate or foreign
commerce by any means, including by computer, or if such visual depiction has
actually been transported or transmitted using any means or facility of,inter­
state or foreign commerce or in or affecting interstate or foreign conmerce or
mailed.

3 of 3

Western pjstrict of Arkansas-Display Receipt

hitps://jenie.ao.dcn/arwd-ecf/cgi-bin/DisplayReceipt.pl?65045924;

U. S. District Court
Western District of Arkansas

APPENDIX -f

Notice of Electronic Filing
The following transaction was entered on 8/13/2018 at 9:32 AM CDT and filed on 8/13/2018
Case Name:
USA v. Ram
Case Number:
5:13-cr-50045-TLB
Filer:
AppEHQix -f
Document Number: 118
Docket Text:
MEMORANDUM OPINION AND ORDER adopting [108] Report and Recommendations and
denying [89] Motion to Vacate (2255) as to Santosh Ram. Signed by Honorable Timothy L
Brooks on August 13, 2018. (cc via CM/ECF: U.S. Probation Office, U.S. Marshals Service)
(tg)

5:13-cr-50045-TLB-l Notice has been electronically mailed to:
Deborah Fennell Groom Debbie.Groom@usdoj .gov, CaseView.ECF@usdoj .gov,
Karen.S.Gentry@usdoj .gov, cindy.mckinney@usdoj .gov, kimberly.brooks@usdoj .gov
Kimberly R. Weber

krw@mcrmt.com, kassist@mcrmt.com

Emily Milholen Reynolds
Dustin S. Roberts

Emily.reynolds@walmartlegal.com

Dustin.Roberts@usdoj.gov, CaseView.ECF@usdoj.gov, Nidple.M.Times@usdoj.gov

Benj amin Wulff Ben.Wulff@usdoj .gov, CaseView.ECF@usdoj .gov, Kathleen.D.Hogan@usdoj .gov,
Lindsay.Dye@usdoj.gov
5:13-cr-50045-TLB-l Notice has been delivered by other means to:
Santosh Ram(Terminated)
11361-010
Great Plains Correctional Facility
P.O. Box 400
Hinton, OK 73047
The following document(s) are associated with this transaction:
Document description:Main Document
Original filename:n/a
Electronic document Stamp:

of 2

8/14/2018,4:061

■I
,r

VIA U.S. MAIL
Facebook Legal Department
156 University Avenue
Palo Alto, CA 94301

Dear Sir/Madam:
I am in urgent and desperate need of your help. I am unlawfully convicted
and sentenced of the crime I did not commit.
Could you please kindly provide me information about when Facebook. com
started video chat on Facebook.com? I am alleged to have received visual depic­
tion on webcam on facebook which involved a minor between 2009 - 2011. But I
believe facebook.com did not had video chat till it acquired skype. I was told
facebook acquired skype in July, 2011, so it would have taken some time to
develop and test video chat on facebook.com before it was launched. So I believe
video chat was not on facebook.com during 2009-2011. Thank you so much in
advance. I will really appreciate your help. May .GodvBless You.,

Date:

( Z°l8

's-z

/s/

Santosh Ram # 11361-010
Great Plains Correctional Facility
P.0. Box 400
Hinton, OK 73047

j-

' >■-

. ' i‘

k-

raj

